CERTIFICATE OF WORD COUNT
Pursuant to Rule 33.1(h) of the Rules of the
Supreme Court of the United States, Thereby certify
that the accompanying Petition for Writ of Certiorari
on behalf of Petitioner Jeremiah F. Manning, which
was prepared using Century Schoolbook 12-point
typeface, contains 4,342 words, excluding the parts of
the document that are exempted by Rule 33.1(d).
This certificate was prepared in reliance on the wordcount function of the word-processing program
(Microsoft Word) used to prepare this document.
I declare under the penalty of perjury that the
foregoing is true and correct.
DATED this 7th Day of April, 2020.
\

Jeremiah F. Manning
Petitioner

